DOEF 1325.8
( -93)
United States Government                                                                        Department of Energy

memorandum
         DATE:       July 12, 2007
                                                                   Audit Report Number: OAS-L-07-15
  REPLY TO
  ATnN OF:          IG-32 (A07ID055)

  SUBJECr:          Audit of the Idaho National Laboratory Facility
                                                                    Footprint Reduction
          TO:       Manager, Idaho Operations Office


                   INTRODUCTION AND OBJECTTVE

                   On February 1, 2005, Battelle Energy Alliance, LLC (BEA)
                   for managing and operating the Idaho National Laboratory assumed responsibility
                   of Energy (Department)
                                                                           (INL) for the Department
                                            under a new 10 year contract. ThI m.ion ,the
                                                                                      for        L s to
                    nntance the Nation's energy security by becoming the preeminent, internationally
                     recognized nuclear energy research, development, and demonstration
                    accomplish this mission, BEA proposed aggressive                              laboratory.. To
                                                                            infrastructure   initiatives  during
                    its contract tenure. One of these initiatives is the elimination
                    feet of old and outdated facilities. The footprint reduction       of  1.1 million   square
                                                                                    initiative is designed to
                    lower maintenance and operations costs, as well as deferred
                                                                                      maintenance costs.
                   For Fiscal Year 2006, the Department developed a performance
                   management plan that.would compensate BEA with a                       evaluation
                                                                              fee worth $187,000 for
                   achieving a footprint reduction of 100,000 square feet. Criteria set forth
                                                                                                     for this
                   incentive included termination of leases; square footage
                   dry" condition; facilities transferred to another entity placed in "cold, dark, and
                                                                             or deactivated and demolished;
                  and, space transferred to the jurisdiction of the State Historical
                  The objective of this review was to determine whether BEA Preservation Office.
                  Idaho National Laboratory Site's facility footprint.               successfully reduced the

                  CONCLUSIONS AND OBSERVATIONS

                  BEA did not successfully reduce the INL Site's facility footprint.
                  BEA claimed credit for reducing the Department's                    Specifically, while
                                                                      footprint by 147,093 square feet,
                  100,315 square feet was transferred to a different Department
                 provided no real benefit to the Government, and 32,697          contractor and
                                                                           square feet was reduced for
                 work that was carried to completion by Department officials.
                 Department gave full credit to BEA for the footprint reduction However, the
                                                                                  and awarded them the
                 full fee of $187,000.
                 BEA was given credit for reducing the INL Site's
                 feet although the Department continues to pay the facility footprint by 100,315 square
                                                                    lease costs on this facility through
                 a different contractor. When the Department decided
                                                                        to divide the management and
'   . nf
      "I.   ".   '.       AA, 0OO   A l     I        'i.   U i                   "   'i'i "u   A       214
                                                                                                        :.U.U.   .   "'.



                        operating contract at the site into two separate contracts in 2005, there was
                                                                                                      a need to
                        realign which facilities would belong to each new contractor. After determining
                        facility was no longer needed, BEA transferred the Technical                       a
                                                                                        Support Annex and
                       Technical Support Building to the other contractor, CH2M WG
                       though this reduced
                                                                                          Idaho, LLC. Even
                                             the footprint for BEA from a site-wide perspective, this transfer
                       did not reduce the Department's total footprint presence;
                                                                                 responsibility for the facility
                       merely switched hands. Thus, the Department's commitment
                                                                                      to fund the lease
                       payment was not relinquished. Even though the transfer
                                                                                 did not result in termination
                       of a lease, the Departmnnt gave BEA credit for this reduction when calculating    their
                       incentive fee payment.

                       In addition, BEA was granted credit for a 32,697 square
                                                                                  foot reduction for work that
                       was carried to completion by Department officials. Specifically,
                                                                                           the Department is
                       required to provide leadership in the preservation of cultural resources on lands it
                       administers. The INL Cultural Resource Management Plan lists
                                                                                          "signature
                      properties" that the Department is required to consider for reuse
                                                                                        and/or preservation-
                      in-place. In 2004, well before BEA was awarded the INL contract, the Department
                      initiated contact with the State Historical Preservation Office regarding
                                                                                                the
                      disposition of the CF-633 building. In February 2006, after
                                                                                  BEA determined that
                      buildings CF-606,   607, 613, and 632 could not be reused, the Department again
                      contacted the State Office reae.qtimn• •       nc,,,,,de                 al d;
                      Ultimately, these five buildings w.re placed under the State Historical
                                                                                                  Preservation
                      Office's jurisdiction. It is also important to note that the effort to decommission
                      five facilities was performed by contractors prior to BEA, who placed                 the
                      "cold, dark and dry" status. BEA completed the Idaho
                                                                                                 them in a
                                                                           Historic Sites Inventory
                      documents used by the State Office to make its determination and
                                                                                       the Department
                      gave credit to BEA when calculating their incentive fee payment.

                  As a result, $160,669 of the $187,000 that the Department paid
                  real benefit to the Government or was primarily accomplished to BEA provided no
                                                                                by other personnel.
                  In August 2006, the Office of Inspector General issued Audit Report
                                                                                        "Management
                  Controlsover PerformanceFees in the Idaho NationalLaboratory
                                                                                       Contract"(OAS-
                 M-06-07, August 24, 2006) which noted that the Department
                                                                                did not always use
                 effective performance measures and fees to reward contractor
                 INL. Among other things, we recommended that managementperformance at the
                                                                                  take action to ensure
                 that the amount of the fee is proportionate to the work to be performed.

                 Since the Department agreed to take corrective action based
                                                                               on our earlier report, we
                 are not providing additional recommendations to management as part
                                                                                         of
                 However, it appears that additional attention is warranted in this area. this report.
                 SCOPE AND METHODbLOGY

                 The audit was performed between February 2007 and June 2007
                                                                                 at the Idaho
                 Operations Office. The scope of the audit focused on the footprint reduction
                 incentive found in BEA's Fiscal Year 2006
                                                            Performance Evaluation Management
                 Plan.



                                                       2
 To accomplish the audit objective, we obtained and reviewed guidance relevant to
 performance incentives; reviewed BEA's contract; reviewed work
                                                                    performed to meet
 the footprint reduction incentive; and held discussions with key officials responsible
 for overseeing the footprint reduction incentive.

 The audit was performed in accordance with generally accepted Government
 auditing standards for performance audits and included tests of internal
                                                                            controls and
 compliance with laws aqd regulations to the extent necessary to satisfy the
                                                                               audit
objective. Accordingly, we assessed the Department's controls over performance
incentives. Because our review was limited, it would not necessarily have
                                                                               disclosed
all internal control deficiencies that may have existed at the time of our audit.
                                                                                   Also,
we considered the establishment of performance measures in accordance
                                                                             with the
Government Performanceand Results Act of 1993 as they related
                                                                     to the audit
objective. Additionally, we did not rely on computer-processed data
                                                                         during the
audit; therefore, we did not conduct reliability assessments on the data.

We discussed the audit results with Department officials at the Idaho Operations
Office during the week of June 11, 2007. Because no formal recommendations
                                                                                are
being made in this report, a formal response is not required. We appreciate
                                                                            the
cooperation of your staff during our review.




                                           drick G. Pieper, Director
                                      Energy, Science and Environmental
                                        Audits Division
                                      Office of Inspector General
cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Assistant Secretary, Office of Nuclear Energy
    Team Leader, Audit Liaison Team, CF-1.2
    Audit Liaison, Idaho Operations Office




                                3
